Supreme Court, U.S.
FILED

DEC 2 1 2020
No.

30-93^

OFFICE OF THE CLERK

In The
SUPREME COURT OF THE UNITED STATES
BOBBY L. FRANKLIN, D/B/A DAYDREAM
LAND & SYSTEMS DEVELOPMENT,
Petitioner,
v.
D.J. LAUGHLIN; ATTORNEY WILLIAM R.
URGA,
Respondents.
On Petition for a Writ of Certiorari to
The Supreme Court of the State of Nevada
PETITION FOR A WRIT OF CERTIORARI
BOBBY L. FRANKLIN
Desert Land Entryman N-49548
DL&S Development Co.
2451 N. Rainbow Blvd. # 2037
Las Vegas, NV. 89108
Petitioner pro se
830-822-4791

RIGINAL

received”!

DEC 3 0 2020

1

QUESTIONS PRESENTED
1.
Has Petitioner Franklin’s existing stare
decisis patent rights that is published in his
certified First Title on the described 80 acres ever
been addressed or examined in any judiciary court
to be enjoined from NRS 40.010 et seq. Quiet Title
Action relief1?
a.
Should Respondent Laughlin’s subsequent
adverse patent rights on Franklin’s 80 acre estate
have been addressed or annulled by the Nevada
court(s) for his alleged premeditated fraud2;
b.
Did his attorney Urga finally document his
fabricated and undisputed five counts of “fraud
upon the district court minutes” in 2016, that has
extorted Franklin’s 80 acre estate into his client
D.J. Laughlin’s possession, subject to liability
under NRS 207.400, 207.4703; and,
c.
Have the Nevada courts mistakenly let the
Respondents jointly get away with it all, in
violation to the due process clause in the 14th
Amendment of the United States Constitution?

1 https://drive.google.com/file/d/1U6WkUiltv4FPQs CT3Wn hO
DW7pixaWM C/view
2https://docs.google.com/document/(l/lZB6adR IlhUbBRkklIr.
SFn9ALPN2 PlTTvPZOrKvfsUQ/edit#heading=h.gidgxs
3https://drive.google.com/file/d/0B0hIQVlAnnCUlVvWVJlb28
2eU0/view

11

TABLE OF CONTENTS
PAGE(S)
THE QUESTIONS PRESENTED

1

PETITION FOR CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL PROVISION

2

INTRODUCTION

2-3

STATEMENT OF THE CASE

3-5

REASONS FOR GRANTING PETITION

5-8

CONCLUSION

8

TABLE OF AUTHORITIES
THE QUIET TITLE ACTION STATUTE
NRS 40.010 et seq......................................

i,3

THE RELEVANT RICO STATUTES
NRS 207.400, 207.470 ......................

i, 6

THE JURISDICTION OF THIS COURT
28 U.S.C. § 1257(a).................................

2

THE 1877 DESERT LAND ACT OF CONGRESS
43 U.S.C. §§ 321-323, 325 ..................................... 2

Ill

RULE 60(b)(3)(4), 60(d)(l)(3)

4

THE PATENT CONFIRMATION LAW
43 C.F.R. § 1862.6, 43 U.S.C. § 1165 . .

7

CASE LAW
BWD Properties 2. LLC. v. Franklin.
2:06-CV-01499-BES-PAL..................

2-3

All Mineral Claims Finally Reversed
Bobby L. Franklin. 116 IBLA 29, (1990)

5-6

The Stare Decisis Doctrine of this Court
Stocklev v. United States. 260 U.S. 532 (1923) . . 7-8
TABLE OF APPENDICES
APPENDIX A:
10/01/2020, Nevada Supreme Court
Petition for Rehearing Denied.........

I

APPENDIX B:
09/03/2020, Nevada Supreme Court
Order Regarding Motions Denied .

II

APPENDIX C:
07/30/2020, Nevada Supreme Court
Order Dismissing Appeal Jurisdiction
APPENDIX D:
06/04/2020, Clark County District Court
Final Decision and Order........................

III

IV-VII

-1 PETITION FOR CERTIORARI
Petitioner Bobby L. Franklin respectfully requests a
writ of certiorari issue to review the judgment(s) by
the Nevada courts that have ignored, dismissed and
deleted Franklin’s stare decisis patent rights that is
published in his certified First Title on the described
80 acres, of which “has never been addressed or
examined in any judicial court to be enjoined or
deleted from record by the Nevada courts.”
OPINIONS BELOW
Clark
County
District
Court
final
The
“Decision and Order” that denied to resolve any
Questions Presented on appeal; deleted the complaint
and its evidence from the Register of Actions record;
and, its ex parte reasoning was filed 06/04/2020 and is
reprinted in Appendix D.
The Nevada Supreme Court “Order Dismissing
Appeal” jurisdiction of my existing stare decisis patent
rights that is published in my certified First Title on
my 80 acre estate; prohibited any “opening brief’ to be
filed; and, failed to answer or resolve any Questions
Presented on appeal was filed on 07/30/2020 and is
reprinted in Appendix C.
The Nevada Supreme Court “Order Regarding
Motions” that denied my motion to dissolve any
injunction and post bond on the 80 acres pending
appeal resolution was filed on 09/03/2020 and is
reprinted in Appendix B.
The Nevada Supreme Court “Order Denying
Rehearing” of my existing stare decisis patent rights
that is published in my certified First Title on the
described 80 acres, and failed to answer or resolve any
Questions Presented on appeal was entered on
10/01/2020 and is re- printed in Appendix A.

-1 -

-2JURISDICTION
The jurisdiction of this Court is invoked under 28
U.S.C. § 1257(a).
CONSTITUTIONAL PROVISION
The due process clause in the 14th Amendment to the
U.S. Constitution:
No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the laws.
INTRODUCTION
In 1988,1 purchased the described 80 acres from the
BLM, under the 1877 Desert Land Act of Congress 43
U.S.C. §§ 321-323, 325, and I was issued the
“receiver’s receipt” for it from the BLM. See, footnote 1
in the Questions Presented.
In 1990, the IBLA “reversed” all BLM mineral
claims on my 80 acres, and “remanded” the BLM “for
action consistent with this opinion.” Such IBLA
Decision is final for the DOI and its BLM agency. See.
footnote 1.
In 1991, I discovered my stare decisis patent rights
in the law library, so I began publishing such
instruments in my First Title on the described 80
acres with the Clark County Recorder. See, footnote 1.
In 2006, respondent Laughlin acquired his adverse
patent(s) on my 80 acre estate. See, “footnote 2”. Days
later, D.J. Laughlin’s BWD corporations via his
attorney URGA sued me and my family in Nevada
federal court for tort and to quiet title in case BWD
Properties 2, LLC v. Franklin, 2:06-CV-01499-BES-

-2-

-3 PAL, decided 09/27/2007, where attorney URGA
persuaded the newly appointed federal Judge
Sandoval to omit my stare decisis patent rights that is
published in my First Title from the evidence.
On 09/29/2008, after omitting my stare decisis
patent rights that is published in my First Title from
evidence, Judge Sandoval ruled I “have no property
rights” and enjoined my property rights on the 80
acres. Soon thereafter he resigned as federal judge.
In 2016, Attorney Urga finally documented his
undisputed five counts of his “fraud on the district
court minutes” in the Nevada courts that had extorted
my 80 acre estate into his client D.J. Laughlin’s
possession. There is no statute of limitations on such
fraud. See, footnote 3 under the Questions Presented.
On 10/25/2018, I had my stare decisis patent rights
in my existing First Title on the 80 acres certified by
the Clark County Recorder, to be verified and to re-file
it as the district court certified evidence that was
previously overlooked and omitted from record by the
Nevada courts. See, footnote 1, Questions Presented.
STATEMENT OF THE CASE
On 05/15/2020, I electronically filed my Petition and
Complaint in the Clark County District Court for NRS
40.010 et seq. 40.030 Quiet Title Action relief, and to
address'.
1) My existing stare decisis patent rights that is now
published in my certified First Title on the described
80 acres. See, footnote 1 in Questions Presented;
2) Respondent Laughlin’s adverse patent rights on the
80 acres. See, footnote 2; and,
3) Attorney Urga’s undisputed and documented five
counts of his “fraud on the district court minutes” he
stated in 2016, to extort my 80 acre estate into his

-3 -

-4client D.J. Laughlin’s possession. See, footnote 3 under
the Questions Presented.
On 06/04/2020, in its final Decision and Order the
district court:
1) Directed her Clerk “to close case A-20-815083-D”
and strike/omit/delete my Petition, Complaint and its
evidence from the court Register of Actions record;
and,
2) In ex parte, misquoted the deleted Complaint and
tried to defend attorney Urga’s undisputed five counts
of his “fraud on the district court minutes” that he
stated in footnote 3 that had extorted the 80 acres from
Franklin into his client D.J. Laughlin’s possession.
[Footnote 1 clearly proves that footnote 3 was/is all
fabricated fraud and extortion by the Respondents.]
On 06/09/2020, Franklin’s Motion to Reconsider
under Rule 60(b)(3)(4), 60(d)(l)(3) was timely filed in
the district court, and nobody responded to it.
On 07/30/2020, the Nevada Supreme Court filed its
Order Dismissing Appeal jurisdiction which prohibited
any opening brief to be filed.
On 08/18/2020, I filed the Motion(s) to dissolve any
injunction that may be on the 80 acres until my stare
decisis patent rights in my certified First Title are
addressed, and I requested leave of court to post bond
pending resolution.
On 09/03/2020, the Nevada Supreme Court filed its
Order Regarding Motions which denied my Motion to
dissolve any injunction that may be on the 80 acres
and denied my request to post bond pending appeal
resolution, which is also appealable.
On 10/01/2020, the Nevada Supreme Court filed its
short Order Denying Rehearing.

-4-

-5 On 10/21/2020, I USPS priority mailed the Nevada
Supreme Court and the Respondents the Appellant’s
Motion to Stay Issuance of Remittitur pending writ of
certiorari.
On 10/26/2020, its Remittitur Issued/Case Closed,
and my Motion to Stay was not filed.
REASONS FOR GRANTING PETITION
In the (above) Nevada courts, Franklin repeatedly
pleaded the 2016 documented truth:
1. “Attorney URGA argued ‘this had been laid out in
several federal courts’, While clearly knowing that
Franklin’s First Title has never been laid out nor has
it ever been [addressed] examined in any judicial court
to be laid out. See, footnote #3 under Questions
Presented.”
2. “Attorney URGA falsely stated that ‘the BLM
rejected Pltfs action because the land was mineral in
character.’ While clearly knowing that the Department
of the Interior Board of Land Appeals (IBLA) had
finally reversed all BLM mineral claims on 09/27/1990,
in Bobby L. Franklin, 116 IBLA 29-31. See, footnote #1
under the Questions Presented.”
3. “Attorney URGA falsely stated ... ‘that the Pltf.
was deemed a vexatious litigant’, while knowing that
at that time of hearing, that was also false. See.
footnote #3.”
4. “Attorney URGA fraudulently argued that ‘the
Pltfs. application to purchase the property from the
BLM was denied due to their report, which indicated
the land was mineral in nature and not suitable for
agricultural purposes’, While clearly knowing Franklin
did purchase the described 80 acres from the BLM in
August 1988 and has the purchase receipts to prove
it; and, on 08/27/1990, the IBLA had finally reversed

-5-

-6all BLM ‘mineral in nature’ claims in Bobby L.
Franklin. 116 IBLA 29-31 (1990) and had remanded
the “BLM for action consistent with this opinion. See,
footnote #1.”
5. “Attorney URGA argued that in 2006, his client
D.J. Laughlin ‘purchased the land at a BLM auction’,
While knowing such BLM auction was requested and
formed by D.J. Laughlin in his political “Envision
Laughlin4” organization to steal the 80 acres from
Franklin and conceal his existing First Title on it.
Also, URGA omitted to disclose that on each of the
three adverse patents D.J. Laughlin received from
BLM, they each cite the patents are ‘SUBJECT TO:
(Franklin’s) Valid existing right’; and, that the USA
had waived all interest and liability in the 80 acre
matter.”
rSee, footnotes 1-3 under Questions Presented]
The district court’s final Decision and Order had
deleted the filed complaint and its evidence from
record; ignored Franklin’s Motion to Reconsider; and,
misquoted the complaint. In ex parte, she tried to
defend attorney Urga’s documented five counts of his
“fraud on the district court minutes” he did in 2016, all
done in its one-sided ex parte miscomprehension of the
written facts, without any objection allowed, after
deleting the certified evidence in footnotes 1-3 that was
filed in her district courtroom.
The Nevada Supreme Court again mistakenly
denied its jurisdiction: 1) To ever address my stare
decises patent rights published in my certified First
4 https://fedlaws.xvz
This URL website documents in detailed
chronology the dated events done by the named respondents and
their other public officers who are jointly in the biggest real estate
extortion racket in Nevada history. How many law enforcement
agency referrals do I need to have this public corruption racket
investigated, audited and prosecuted NRS 207.400, 207.470?

-6-

-7Title; 2) To ever address D.J. Laughlin’s adverse
patent rights on my 80 acre estate; and 3) To ever
address attorney Urga’s undisputed five counts of his
“fraud on the district court minutes” he documented in
2016.
In summation to this petition, Franklin’s stare
decisis patent rights under 43 C.F.R. § 1862.6, 43
U.S.C. § 1165 are published and now certified in his
First Title on his 80 acre estate, under the
longstanding decision of this United States Supreme
Court in Stocklev. et al.. v. United States. 260 U.S. 532
(1923) that the Nevada courts omit, delete, deny and
dismissed:
5.
Public
lands
key
98—
Limitation of two years after
issuance
of
receipt
forecloses
inquiry into the mineral character
of land.
The expiration of the two-year period of
limitations after the issuance of the
receiver’s receipt upon final entry which,
under Act March 8 1891, § 7 (Comp. St. §
5118), entitles the entryman to a patent
if the no contest or protest is then
pending, precludes a subsequent inquiry
as to whether the entryman knew or
should have known that the land was
chiefly valuable for its minerals at the
time he made his entry and final proof.
[5] The effective character of the
receiver’s receipt being established, the
question, after the lapse of the two-year
period, as to whether the land was
mineral bearing, was no longer open.

-7-

-8Inquiry upon that ground was then
foreclosed, along with all others. Payne v.
United States ex rel. Newton, supra.
[See, footnote 1 under the Questions Presented]
And that unequivocally proves that the Respondents
fraudulently extorted my 80 acre estate, and the
Nevada courts have mistakenly let them get away
with it in ex parte, by omitting, concealing, denying
and deleting the documented evidence in the URL
footnotes 1-4 from the court Register of Actions record.
For the last fourteen-years, the same named
Respondents have jointly been concealing and
defrauding my existing stare decisis patent rights on
my 80 acre estate described in my certified First Title
from QTA relief, but as of 2016 their fraud is now all
documented in footnotes 1-3, and the Nevada courts
have mistakenly let them get away with it all in this
case on appeal.
CONCLUSION
Based on the foregoing, the Respondents must be
ordered to respond and the petition for a writ of
certiorari should be granted.
Respectfully submitted by,
s/ BOBBY L. FRANKLIN
Desert Land Entryman N-49548
2451 N. Rainbow Blvd. #2037
Las Vegas, NV. 89108
Petitioner pro se
830-822-4791

-8-

I
IN THE SUPREME COURT OF THE STATE OF
NEVADA
BOBBY FRANKLIN, D/B/A ) No. 81432
DAYDREAM LAND &
)
SYSTEMS DEVELOPMENT,)
FILED
Appellant,
) OCT 01 2020
Vs.
) Elizabeth A. Brown
D.J. LAUGHLIN; AND
) Clerk of Supreme Court
ATTORNEY WILLIAM R.
)
By: illegible
URGA,
) Chief Deputy Clerk
Respondents.
)
ORDER DENYING REHEARING
Rehearing denied. NRAP(c).
It is so ORDERED.
/s/Parraquirre. J.
/s/Hardesty. J.
/s/Cadish, J.
cc: Hon. Linda Marie Bell, Chief Judge
Bobby Franklin
D.J. Laughlin
Jolly Urga Woodbury Holthus & Rose
Eighth District Court Clerk

I

